                                REVIEW OF THE 

                        SMALL DISADVANTAGED BUSINESS 

                           CERTIFICATION PROGRAM 


                            AUDIT REPORT NUMBER 5-04


                                  NOVEMBER 4, 2004 





This report may contain proprietary information subject to the provisions of 18 USC 1905
and must not be released to the public or another agency without permission of the Office
of Inspector General.
                            U.S. Small Business Administration 

                                Office of Inspector General 

                                  Washington, DC 20416 



                                                                        AUDIT REPORT
                                                                Issue Date: November 4, 2004
                                                                Number: 5-04


TO: 	          Albert B. Stubblefield
               Acting Associate Administrator for Business Development


FROM: 	        Robert G. Seabrooks
               Assistant Inspector General for Auditing

SUBJECT: 	     Review of the Small Disadvantaged Business (SDB) Certification Program

        The Office of Inspector General (OIG) completed an audit survey of the SDB
Certification Program to determine whether SBA is properly evaluating the qualifications of
applicant firms for certification or re-certification (hereafter referred to simply as “certification”)
as SDBs. We found significant problems with SBA’s evaluation processes and supporting
systems. Based on the results of the audit survey, we determined that a full audit of the program
is not warranted at this time because those results would not likely change if we reviewed a
larger sample of application files. This report presents the results of our review.


                                          BACKGROUND

        SBA administers two assistance programs for small businesses owned by socially and
economically disadvantaged individuals, the Minority Small Business and Capital Ownership
Development Program (8(a) Program), and the SDB Certification Program. While the 8(a)
Program offers a broad scope of assistance to firms owned by socially and economically
disadvantaged individuals, SDB certification strictly pertains to benefits in federal procurement.
Section 8(a) firms automatically qualify as SDBs, but other firms may apply for SDB-only
certification.

         SBA certifies small businesses as SDBs if they meet specific social disadvantage,
economic disadvantage, ownership, control, and size eligibility criteria. SDBs must meet all 8(a)
eligibility requirements, with few exceptions. SDBs do not, for example, have a “potential for
success” requirement and their owners have a higher adjusted net worth dollar limit for program
entry. Once approved, the firm is added to an on-line registry of SDBs maintained in the Central
Contracting Registry (CCR), where it is eligible for price evaluation adjustments of up to ten
percent when bidding on Federal contracts in certain industries. The program also provides
evaluation credits for prime contractors who achieve SDB subcontracting targets. This helps
Federal agencies achieve the government-wide goal of five percent SDB participation in prime
contracting. The certification period is for three years at which point the SDB may apply for re-
certification for another three years. According to the CCR, there were 2,918, non-8(a) SDBs as
of March 9, 2004.


                       OBJECTIVE, SCOPE AND METHODOLOGY

         The survey objective was to determine whether SBA is properly evaluating the
qualifications of SDB-only applicant firms (i.e., those that are not also 8(a) firms) for
certification as SDBs. We completed a survey rather than a comprehensive audit of the program.
As part of the survey, we interviewed SBA employees/contractors, and reviewed government
laws, regulations, policies and procedures pertaining to the SDB Certification Program. We also
reviewed Office of Hearing and Appeals (OHA) cases for guidance in evaluating certain
eligibility criteria.

        Based on data provided by the program office, we randomly selected ten SDB-only
application files from the 970 companies approved for certification in Fiscal Year (FY) 2003 and
reviewed each file to determine whether criteria were met for the five eligibility elements of
social disadvantage, economic disadvantage, ownership, control, and size. Based on data
generated from the SDB application tracking system, we queried SBA’s loan accounting data
base to determine whether any of the 2,612 owners of SDB’s receiving SDB-only certification
from FY 2001 through FY 2003 defaulted on SBA loans and reviewed the relevant SDB
certification file for every identified defaulted loan.

        The scope of our survey was limited in the following three ways: (1) we could not review
some of the files included in our initial sample because SBA could not locate them; (2) we could
not compare the financial condition of the applicant to the financial profiles of small businesses
in the same primary industry classification because SBA did not have current peer business
performance comparison data; and (3) we could only make very limited use of the SDB
application tracking system since an official acknowledged that it was inaccurate.

       We performed audit survey work from March to July, 2004 in Washington, D.C. The
survey was conducted in accordance with Government Auditing Standards.


                                     SURVEY RESULTS

        Eligibility reviewers in SBA’s Office of Certification and Eligibility (OCE) did not
adequately consider whether owners of companies applying for SDB certification were
economically disadvantaged. Contrary to regulations, eligibility reviewers were also certifying
companies as SDBs when their owners had defaulted on government obligations. As a result, at
least two of the ten SDBs in our sample should not have been certified. An additional firm that
indicated a Federal delinquency on its SBA Form 1010 without providing an explanation may



                                                2

need to be de-certified once a follow-up is done. Moreover, the owners of seven other
companies certified from June 2001 to April 2004, but not in our sample, had defaulted on SBA
loans. Companies inappropriately obtaining SDB certification could receive Federal contracts
which would otherwise be awarded to eligible SDBs. Additionally, we found (1) data integrity
problems with an SDB application tracking system and (2) inadequacies in file safekeeping, as
program officials could locate only two-thirds of the files requested for review by auditors.

        SBA Management generally agreed with Findings 1, 3, and 4, and with the exception of
Recommendation 1C, agreed with all the recommendations contained in those findings. For
Recommendation 1C, they did not want to de-certify the firm found unqualified for program
participation based on the owner of the firm’s total assets without further investigation. SBA
management agreed with the language of Finding 2’s title and the recommendations in that
finding, but disagreed with the finding’s premise. Specifically, they disagreed that regulations
prohibit applicants with prior Federal loan defaults from participating in the SDB Certification
Program. Management’s response to the draft report is included as Attachment 1.


Finding 1: Criteria for Determining the Economic Disadvantage of SDB Owners were not
           Properly Applied.

        Of the four criteria to be considered when determining economic disadvantage for owners
of companies applying for SDB certification, OCE did not analyze two and inadequately
considered a third. OCE officials stated they made their economic disadvantage determination
based on whether the individual’s adjusted net worth was under $750,000 and on “a totality of
the circumstances” for assets and income. While adjusted net worth is the sole economic
disadvantage criterion for which the Code of Federal Regulations (CFR) sets a fixed dollar limit
for SDB certification, the CFR requires that SBA consider the three other criteria (total assets,
two years’ personal income, and business peer performance comparison). Since only adjusted
net worth has a fixed dollar limit, OCE reviewers primarily focused on that criterion, and gave
insufficient consideration to the other three. OCE reviewers were not comparing the financial
performance of each applicant company with that of its peers since officials appeared unaware
that the CFR required this criterion be considered when determining economic disadvantage.

The fair market value of all assets was not analyzed when determining economic disadvantage.

       None of the reviewed OCE certification analyses contained a discussion of total assets
when determining whether each company’s owner was economically disadvantaged. According
to 13 CFR 124.104 (c), which lists the factors to be considered when determining whether an
individual is economically disadvantaged, SBA will examine the fair market value of all assets,
whether encumbered or not, in considering factors relating to the personal financial condition of
any individual claiming disadvantaged status.

       Importantly, an OHA ruling, Pride Technologies, Inc. (1996), found that SBA acted
properly in denying a firm’s entry into the 8(a) Program (and hence, into the SDB Program)
based on the business owner’s total assets exceeding $4.1 million, among other factors. This
OHA ruling also stated that as long as one of the reasons SBA used for denying economic



                                                3

disadvantage, e.g., total assets, is upheld, the denial will be sustained. Moreover, the SDB
Training Manual (p.7) indicates that high total assets are one of the “red flag” factors affecting
economic disadvantage.

       We reviewed one file in which the individual had total assets of approximately $5.7
million, yet the applicant firm was nonetheless certified as an SDB. The OCE certification
analysis did not mention total assets, but stated that the owner was economically disadvantaged
based on his adjusted net worth and compensation. At a total approaching $6 million, the
individual’s assets seem excessive for someone claiming economic disadvantage, especially after
the Pride Technologies, Inc. OHA ruling.

Income was insufficiently analyzed when determining economic disadvantage.

        None of the reviewed OCE certification analyses included a discussion of whether the
adjusted gross income of the company’s owner was in the top two percent of all filers, and only
three of the ten reviewed files included a discussion of whether the company’s owner adjusted
gross income was in the top one percent of all filers. According to 13 CFR 124.104 (c), SBA
will examine personal income for the past two years in considering factors relating to the
personal financial condition of any individual claiming disadvantaged status. According to one
OHA ruling, Autek Systems Corporation (1992), SBA may properly conclude that a socially
disadvantaged individual is not economically disadvantaged based solely on the high income of
such socially disadvantaged individual relative to the income of Americans generally. A second
OHA ruling, Oak Ridge Tool-Engineering, Inc. (2000), found that excessive personal income
alone can result in a finding that an individual is not economically disadvantaged, even if the
individual’s net worth is within the regulatory limit. A third OHA ruling, Corvus Group, Inc.
(2002), found that SBA reasonably determined that the business owners were not economically
disadvantaged when each owner’s average adjusted gross income over the past two years placed
each among the top two percent of all filers. Moreover, the SDB Training Manual (p.7) indicates
that “high average two year income (example: top 1-2% of U.S. taxpayers)” is one of the “red
flag” factors affecting economic disadvantage.

Industry standards were not being used to compare the financial performance of the applicant
concern with that of its peers when determining economic disadvantage.

         In all ten of the files reviewed, we found no evidence that industry standards were used to
compare the financial performance of the applicant concern with that of its peers as one of the
criteria for determining economic disadvantage. SDB officials appeared unaware that they were
required to make this comparison in determining economic disadvantage. According to 13 CFR
124.104 (c), “SBA will also consider the financial condition of the applicant compared to the
financial profiles of small businesses in the same primary industry classification, or, if not
available, in similar lines of business, which are not owned and controlled by socially and
economically disadvantaged individuals in evaluating the individual's access to credit and
capital. The financial profiles that SBA compares include total assets, net sales, pre tax profit,
sales/working capital ratio, and net worth.” Also, an OHA ruling, Shashikant P. Savla, D/B/A
Kabil Associates (1991), found that the applicant concern’s financial profile must be compared to
non-disadvantaged businesses in the same or similar line of business.



                                                 4

        Reference books that contain financial performance statistics of firms in particular
industries are available from various vendors. However, according to SBA officials, such books
have not been purchased by SBA for several years, so neither the SDB Certification Program nor
the 8(a) Program had the current reference books necessary to make those comparisons.


Recommendations

We recommend that the Acting Associate Administrator for Business Development:

1A. 	   Develop and implement procedures to ensure that SDB reviewers properly apply all four
        criteria for determining economic disadvantage, per 13 CFR 124.104(c), using 8(a)
        Program thresholds for maximum income and total assets, and industry financial
        performance comparisons.

1B. 	   Ensure that SDB and 8(a) employees who conduct eligibility reviews have access to the
        current reference material necessary to compare a company’s financial performance with
        that of its peers.

1C. 	   De-certify the one small business concern found by auditors to be unqualified for SDB
        certification, and have it removed from the database of SDB firms maintained on the
        Centralized Contractor Registry (CCR) web site.


Finding 2: SDB Eligibility Reviewers were not Checking for Applicant Past-Due Taxes or
          Other Delinquent Federal Financial Obligations.

        SDB eligibility reviewers were not checking whether applicants answered affirmatively
to a question concerning derogatory financial information on their SDB application form (SBA
Form 1010). On two applications, the business owner had checked “Yes” next to the question,
“Does the firm have any past due taxes or any other delinquent Federal, state or local financial
obligations outstanding or liens against it?” One applicant’s file showed a defaulted SBA loan
and tax liens. The other file did not contain any explanation concerning the delinquent Federal
obligation. Neither reviewer write-up in the files addressed these issues, yet both firms were
nonetheless certified.

        These actions contradicted regulations prohibiting applicants with prior Federal loan
defaults from participating in the 8(a) Program and, hence, the SDB Certification Program.
Additionally, querying SBA’s loan accounting data base using data from the program office’s
application tracking system revealed seven other SDB owners whose companies were certified
from June 2001 to April 2004 with defaulted SBA loans.1 For these seven companies, three of
the owners stated on the SBA Form 1010 that the firm did not have any delinquent Federal
obligations, one stated the firm did, two apparently did not submit the SBA Form 1010, and one

1
  While we requested data from the SDB application tracking system concerning companies certified from FY 2001
through FY 2003, we received data that overlapped that time period.


                                                      5

owner correctly stated his company did not have a defaulted loan but did not note that another
company he owned defaulted on a SBA loan. Consequently, firms that have defaulted on
Federal obligations can still be certified as SDBs and potentially win preferred government
contracts.

         According to 13 CFR 124.108 (e), “neither a firm nor any of its principals that fails to
pay significant financial obligations owed to the Federal Government, including unresolved tax
liens and defaults on Federal loans or other Federally assisted financing, is eligible for admission
to or participation in the 8(a) BD program.” According to 13 CFR 124.1002, 8(a) BD eligibility
criteria will be used when qualifying as an SDB, unless otherwise stated in the CFR. There are
no separate provisions for SDBs concerning this requirement. Moreover, two OHA cases,
Brushworks Unlimited (2000) and Curtoom Construction (1996), found that SBA had
appropriately terminated participant(s) in the 8(a) Program for failing to pay Federal obligations.

           The SDB Certification Program did not have procedures for verifying that applicants
have not defaulted on Federal obligations such as SBA loans. Furthermore, according to an SDB
Certification Program official, they believed 13 CFR 124.108 (e) only applied to 8(a) firms, and
Office of General Counsel and SDB Certification Program staff informed him that a default on a
Federal obligation was not a permanent bar itself to SDB certification. However, the CFR is
clear that this requirement applies to the SDB Certification Program. The SDB Program office
will not comply with current government regulations until procedures are implemented to check
for loan delinquencies or defaults on Federal obligations.


Recommendations

We recommend that the Acting Associate Administrator for Business Development:

2A.    Develop and implement procedures to ensure that SDB eligibility reviewers check all
       applicants for possible defaulted SBA loans by, for example, querying SBA’s loan
       accounting system using the applicant’s Social Security number.

2B.    Update the SDB eligibility reviewer checklist to include a review of questions answered
       affirmatively on the SBA Form 1010.

2C.    Develop and implement procedures to ensure that SDB eligibility reviewer write-ups
       include a discussion to address questions answered affirmatively on the SBA Form 1010.

2D.    Develop and implement procedures to ensure that SDB eligibility reviewers recommend
       denial of SDB certification if a firm or any of its principals do not comply with 13 CFR
       124.108(e).

2E.    Determine whether the company responding affirmatively to a question on the SBA
       Form 1010 concerning derogatory financial information, but not providing an
       explanation, is in violation of 13 CFR 124.108(e).




                                                 6

2F.    Give each SDB or its owner found to have defaulted on a Federal Government debt or
       unresolved tax lien an opportunity to pay back the outstanding obligation. If this is not
       possible, then de-certify the firm and remove it from the database of SDB firms
       maintained on the Centralized Contractor Registry (CCR) web site.


Finding 3: Criteria for Managing Agency Records were not Followed.

         SBA did not comply with its record management procedures in that files are not
adequately safeguarded, and was unable to locate files initially requested during our audit.
We found several SDB application files to be missing. Auditors originally requested ten specific
files for review, but had to select five additional files because some could not be located. An
SDB Program staff member said it took two people two hours to retrieve six out of the ten files
originally requested. Additional time was needed to find their replacements due to files being
out of order. The missing files were found after the OIG completed its review. One program
official indicated that shared facilities and inadequate file space have promoted disorganized
records management. Officials also noted that the file room had recently been moved twice and
files might have been misfiled during the moves.

       According to Standard Operating Procedure (SOP) 0041 2, Records Management
Program (p. 9), adequate and proper documentation of Agency decisions should be made and
preserved. The SOP also mandates the safeguarding of documents to ensure security and
confidentiality for persons directly affected by the Agency's activities.

         Missing case files affects the integrity of SBA’s operations and can make SDB re-
certification more difficult without the original application documents. Furthermore, the security
and confidentiality of SDB applicants’ personal information are not adequately protected if their
files are missing. At a minimum, disorganized files promote the inefficient use of staff resources
when records cannot be retrieved in a timely manner.


Recommendation

3A.    We recommend that the Acting Associate Administrator for Business Development
       ensure that the SDB application filing system safeguards critical program documents in
       accordance with SOP 0041 2, Records Management Program.


Finding 4: Program Officials Need to Ensure that the new Database Contains Correct
          Information.

       Officials from the Office of Certification and Eligibility (OCE) did not follow the
guidance of OMB Circular A-123 in developing management controls to ensure that reliable
information was obtained and maintained. The program office currently uses a database to track
the processing of SDB applications. Since the database was designed to be more than a tracking
system, it contains numerous data fields in addition to the tracking data. We attempted to use



                                                7

some of this data to conduct our audit survey, but encountered numerous problems with the
reliability and integrity of the information. Examples of such problems included null fields in
columns for “net worth” and “adjusted net worth,” incomplete data in other fields, and
significantly fewer business owners than businesses contained in the database.

        Program officials said they plan to implement a new database and migrate “scrubbed”
data from the application tracking system to the new database. Additionally, program
participants will be asked to confirm the accuracy of the data. Due to the sheer volume of
information that must be cleaned-up, however, the old data may still not be sufficiently accurate
to be used reliably after incorporation into the new system.

        According to OMB Circular A-123, as Federal employees develop and implement
strategies for reengineering agency programs and operations, they should design management
structures that help ensure accountability for results, and include appropriate, cost-effective
controls. The Circular defines “management controls” as the organization, policies, and
procedures used by agencies to reasonably ensure reliable and timely information is obtained,
maintained, reported and used for decision making.

       During the time period we were reviewing, the Program Office was only using the
database for tracking application files. As such, it appears that little if any emphasis was placed
on ensuring the accuracy of the data contained in the other fields. Program officials also
confirmed that no management controls had been developed to ensure the accuracy of the data,
such as a second level review, and there was nothing to prevent an applicant from mistakenly
being entered twice. Due to this lack of controls, there is risk that the new database could be
corrupted by migrating inaccurate and unreliable data from the application tracking system to the
new database.


Recommendation

4A.    We recommend that the Acting Associate Administrator for Business Development
       ensure the reliability and integrity of all data in the tracking system before that data is
       migrated to the new database.


                            SBA MANAGEMENT’S COMMENTS

        SBA Management generally agreed with Findings 1, 3, and 4, and with the exception of
Recommendation 1C, agreed with all the recommendations contained in those findings. For
Recommendation 1C, they did not want to de-certify the firm found unqualified for program
participation based on the owner of the firm’s total assets without further investigation.
Management stated that the OHA opinion cited in the report “does not mandate a finding of no
economic disadvantage, under any circumstances, if an individual has $4.1 million in total
assets.” SBA Management wants to further investigate this matter because “there may be other
circumstances warranting a finding of economic disadvantage.”




                                                  8

         SBA management agreed with the language of Finding 2’s title and the recommendations
in that finding, but disagreed with the finding’s premise. Specifically, they disagreed that
regulations prohibit applicants with prior Federal loan defaults from participating in the SDB
Certification Program. SBA Management agreed that the CFR language states that 8(a) Program
eligibility criteria will be used when qualifying as an SDB, unless otherwise stated in the SDB
subpart of the regulations. However, they described how two other 8(a) Program eligibility
requirements were handled in the SDB subpart of the regulations to demonstrate that it is not at
all clear that the CFR portion cited above applies to defaulting on prior federal loans.
Specifically, another 8(a) Program eligibility requirement was repeated in the SDB portion of the
CFR and it could be argued that this was done “to distinguish it from additional eligibility
criteria that are not required for SDB.” Another 8(a) Program eligibility requirement, “good
character,” was not included as an exclusion in the SDB portion of the CFR despite the fact that
SBA stated in the Federal Register that it was not a requirement for SDB certification. SBA
Management requested that we modify the final report to exclude any references to SBA non-
compliance with the regulations.

        SBA Management also discussed improvements that they have already taken to
implement some of the recommendations. At a meeting held at the conclusion of the audit
survey, OCE officials noted that they have taken steps to improve processes associated with
reviewing, tracking, and filing SDB applications. Specifically, program officials said eligibility
reviewers are now using OHA cases as guidance in determining excessive individual income and
total asset amounts for economic disadvantage, two levels of review are now employed to
strengthen case determinations, a recently issued Standard Operating Procedure (SOP) provides
better guidance on many matters, they have received the reference books for peer business
performance comparisons, the application backlog has been reduced, and the filing system has
been revamped. Additionally, program officials have drafted an SBA Policy Notice to clarify
that “good character” and not defaulting on Federal financial obligations are requirements for
SDB certification.


              OIG EVALUATION OF SBA MANAGEMENT’S COMMENTS

        Since SBA Management generally agreed with Findings 1, 3, and 4, we have limited our
evaluation to the points of disagreement. Specifically, we disagree that SBA needs to further
investigate whether the company cited in recommendation 1C should be de-certified. The
Program Office “investigated” this issue during the audit and presented us with their written
analysis of why they believed the individual was economically disadvantaged. We disagreed
that the circumstances included in their analysis warranted a determination that the assets were
not excessive, and note that they did not include this analysis in their formal comments to this
report. Further, since the Pride Technologies, Inc. OHA case found that $4.1 million is an
excessive amount of assets, we believe that a subsequent finding that assets nearly 40 percent
greater are not excessive would be arbitrary and capricious. As such, we have not changed the
recommendation.

       We also disagreed with SBA Management’s response to Finding 2. Specifically, our
finding applies only to an applicant’s history of one or more defaults on Federal financial



                                                9

obligations and not to the broader issue of “good character.” The issue of defaulted Federal
financial obligations is not otherwise provided in the SDB subpart of the regulations, per 13 CFR
124.1002(a), and it therefore applies in determining an applicant’s qualifications for program
certification. As such, we have not modified the finding.

       Finally, we agreed with several minor text changes suggested by SBA Management and
incorporated those changes into this report.

                                          * * * * *
       The recommendations in this audit report are based on the conclusions of the Auditing
Division. The recommendations are subject to review, management decision and action by
your office in accordance with existing Agency procedures for audit follow-up and
resolution.

        Please provide us your management decision for each recommendation within 30 days.
Your management decisions should be recorded on the attached SBA Forms 1824,
“Recommendation Action Sheet,” and show either your proposed corrective action and target
date for completion, or explanation of your disagreement with our recommendations.

       Should you or your staff have any questions, please contact Robert G. Hultberg, Director,
Business Development Programs Group at (202) 205-7577.


Attachments




                                               10

                        U .S . S MALL B USIN ESS A DM INI STRATI ON
                                 W ASHINGTON, D .C. 20416

                                                                                 Attac hm en t 1



                                    MEMORANDUM

DATE: 	       Oclober 26, 2004

TO: 	          Robert G. Seabrooks
               Assistant Inspector General for Auditing
                                                    p1
FROM: 	        Frank J. Lalumiere t:.):... U, /1) / ).­
               Deputy Associate Deputy Administrator
               Office of Govemment Contracting and
                   Business Development .
                                                    ~)   D'I'
               Al Siubblefieid    G-.lc> \0 ~  12    

               Acting Associate Administrator 

               Office of Business Development 


RE: 	          Response to Draft Audit Report---Review of the Small Disadvantaged
               Business (SDB) Certification Program

   Thank you for the opportun ity 10 comment on your review of the SOS certification
program. We agree with mosl of your findings and recommendations, and are already
implementing many oCthe suggested changes 10 improve our program delivery and
management controls.

    This office agrees generally with Findings 1,3, and 4. With regard to Finding 1. we
request that the draft report on p.3 accurately reflect the regulations at 13 C.F.R.
124.1 04(c), by referring to two years' "personal income" rather than "adjusted gross
income." (1 st paragraph under Finding I). This office has already made substantial
progress on Recommendations 1A and 1B, as we have already incorporated an
examination of an individual's personal income and total assets into SDB analyses and
the ortice has recently received the rererence books ror the peer business perromlanee
comparisons. Regarding Recommendation 1C, this office respectrully disagrees with a
recommendation to decertiry this fiml without rurther investigation. The decision orthe
Office or Hearings and Appeals (OHA) rererenced in your draft report does not mandate
a finding of no econom ic disadvantage, under any circumstances, ir an individual has
$4.\ million in total assets. The Pride dec ision holds that SBA was not arbitrary ancl
capricious in deciding this amollnt was excessivc, in this particular case. It does not hold
that SBA must find any amount over $4.1 million to be excessive in all circumstances in
 the future. Although, as you state in your report, this individual 's assets in the case your
ortice reviewcd may "seem excessive," there may be other circumstances warranting a
 findmg or economic disadvantage, and this office would ~Ippreciate an opportunity to
 rurther examine this file, in lieu of an (lutom3tic dccerti ficatioll . Going rorward, as the
analysts are now examining the applications for excessive total assets and excessive
personal income, situations such as this are unlikely to arise.

    With regard to Finding 3, this office agrees that improvements in our filing system
were necessary and agree with Recommendation 3A. In addition to an on-going re­
organization of our filing system, copies of all Agency SOB decisions in FY05 are being
kept in readily accessible binders in chronological order.

   With regard to Finding 4, this office agrees that any new database for the SOB
program should contain accurate infonnation and we agree with Recommendation 4A

    However, regarding Finding 2, while agreeing with both the language of your finding,
that "SOB Eligibility Reviewers were not Checking for Applicant Past-Due Taxes or
Other Delinquent Federal Financial Obligations," and the recommendations to include
this as criteria for SOB certification, this office does not agree with the premise on which
this Finding is based. Your report states on p.5 that these actions [not addressing
delinquent Federal obligations] "contradicted regulations prohibiting applicants with
prior Federal loan defaults from participating in the 8(a) Program and, hence, the SDB
Certi fication Program." You further state (p.6) that: "the CFR is clear that this
requirement applies to the SDB Certification Program." We respectfully disagree with
these two assertions. In fact, it is not at all "clear" from the regulations that this
requirement applies to SDS certification.

    It is true that 13 CFR 124.1002(a) states that in determining whether a fiml qualifies
as an SDB, there should be reliance on 8(a) criteria unless otherwise provided in the SDB
subpart of the regulations. Citizenship is one of the requirements included in Ihe 8(a)
criteria. 13 CFR 124.\ 0 \ states that an 8(a) finn must be "unconditionally owned and
controlled by one or more socially and economically disadvantaged individuals who are
ofgood character and citizens of the United States ... " (Emphasis added). However,
within the SOB subpart, 13 CFR 124.1 002(d) states: "Additional eligibility criteria.
Except for tribes, ANCs, CDCs and NHOs, each individual claiming disadvantaged status
must be a citizen of the United States." Therefore, it could be argued that citizenship was
specifically included in the SDB criteria to distinguish it from additional eligibility
criteria for 8(a) that are not required for SDB. This would include the "other eligibility
requirements" included in 13 CFR 124.108, such as good character and Federal financial
obligations. This interpretation is bolstered by the history of the SDS regulations. in the
Agency's comments accompanying the promulgation of the Final Rule for the SDB
program, the supplementary information included a brier description of an SDB
certification decision: "Such a decision will include the ownership and control of the
finn, the size status of the riml, and the disadvantaged status of those individuals
claiming to be disadvantaged." 63 FR 35767, 35768 (June 30, 1998). Nowhere does it
stale that the decision include an examination or character or Federal financial
obligations. Further, in the discussion of public comments, SBA explained that the
proposed 124.1 002(d) would have required SBA to consider the character of individuals
claiming disadvantaged status, but the Agency decidcd against it as a mattcr or policy,
stating that "SBA does not believe Ihat SBA should look at the character of the riml or



                                              2

individuals claiming disadvantaged status as part of its SDB detennination." 63 FR
35767, 35768 (June 30, 1998). Therefore, the final mle 124.1 002(d) included on ly
citizenship, not good character.

    As it is not at all clear that examining these criteria has been a regulatory requirement
for SDB certification , and to more accurately represent that this would be an Agency
policy change to improve our program, we suggest rephrasing the explanation of the
finding. This would entail modifying the two assertions referenced above on pages 5 and
6, as well as any other reference to our alleged non-compliance with our regulations. We
would also suggest revising the language on p.l which claims that "SDBs must meet all
8(a) eligibility requirements except that they do not have a 'potential for success'
requirement and their owners have a higher adjusted net worth dollar limit for program
entry," and the language on p.2 in Survey Results, which asserts that: "Contrary to
regulations, eligibi lity reviewers were also certifying companies as SDBs when their
owners had defaulted on government obligations."

    In sum, we do agree with the ultimate conclusion of Finding 2: that examining good
character and Federal financial ob ligations would be a positive improvement to the SDB
program. This office is also in agreement with all six recommendations pertaining to
Finding 2. In fact, we have a Policy Notice currently in clearance, which would clarify
the policy of the Agency to now include character and Federal financial obligations as
criteria for SDB. (Note: the draft report erroneous ly states that the management action
includes the drafting of an Information Notice.) Once this Policy Notice is issued, this
office will proceed with implementing your recommendations.

   We appreciate the opportuni ty for input and look forward to working with yOll to
maintain the integrity of the SDB program and certification process.
                                                                                                                       Attachment 2 


                                               REPORT DISTRIBUTION 



Recipient                                                                                                   No. of Copies

Associate Deputy Administrator for Government Contracting 

and Business Development .....................................................................................1 


Deputy Associate Deputy Administrator for Government Contracting 

and Business Development..... ................................................................................1 


Office of the Chief Financial Officer 

Attention: Jeffrey Brown ........................................................................................1 


General Counsel.......................................................................................................3 


U.S. Government Accountability Office .................................................................2 

